ACQUISITION OF THE ADVANCED TANK ARMAMENT SYSTEM


Report No. D-2001-066                    February 28, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ACAT                  Acquisition Category
ATAS                  Advanced Tank Armament System
                      Office of the Inspector General, DoD
Report No. D-2001-066                                            February 28, 2001
  (Project No. D2000AE-0211)

          Acquisition of the Advanced Tank Armament System

                               Executive Summary

Introduction. The Army uses the Advanced Tank Armament System (ATAS), an
Army Acquisition Category III program, to conduct various technology demonstrations
that support other programs. From January 1996 through September 2000, the Army
primarily focused the ATAS on the Abrams tank as the platform for its technology
demonstrations, such as an advanced fire control system, an automatic target tracker
system, a longer cannon barrel, and improved armament. From October 2000 and
beyond, the Army planned to terminate earlier ATAS demonstrations, except for the
tank and medium caliber armaments demonstrations, and to initiate new technology
demonstrations for the Abrams tank and the Bradley Fighting Vehicle Systems. The
new technology demonstrations include a fire control system for new ammunition, an
accuracy upgrade to the existing fire control system for the Abrams, and a larger
cannon for the Bradley. The Army has had the ATAS in the program definition and
risk reduction phase of the acquisition process since August 1989. The Army had no
plans to transition the ATAS beyond the program definition and risk reduction phase.

Objectives. The primary audit objective was to evaluate the overall management of the
ATAS. Because the ATAS was in the program definition and risk reduction phase, we
evaluated whether management was cost-effective in readying the system for the
engineering and manufacturing development phase of the acquisition process. We also
evaluated the management control program as it related to the audit objectives.

Results. The Army did not establish a viable acquisition strategy to develop and
acquire the ATAS beyond the program definition and risk reduction phase. Instead, the
milestone decision authority considered the ATAS to be a program element for funding
technology demonstrations but did not appropriately manage and fund ATAS as a
technology demonstration. As a result, the Army obligated about $85.8 million in
research, development, test, and evaluation funds through FY 2000 and planned to
obligate another $62.9 million from FY 2001 through FY 2007 for a program that the
Army is not intending to fund for the engineering and manufacturing development
phase and the production phase of the acquisition process. On September 30, 2000, the
Army reduced the FY 2001 through FY 2007 funding by about $42 million to about
$20.9 million for the ATAS. Implementing the recommendation would allow the Army
to put the $20.9 million of remaining funds programmed for the ATAS to better use
along with the $42 million previously reprogrammed by the Army. See the Finding
section for a discussion of the audit results.

Summary of Recommendations. We recommend that the Program Executive Officer,
Ground Combat and Support Systems, discontinue further research, development, test,
and evaluation funding for demonstration and validation of the ATAS, and tailor the
Army management control program to ensure that systems under his cognizance in the
program definition and risk reduction phase of the acquisition process implement an
acquisition strategy that meets the intent of the requirements in DoD
Regulation 5000.2-R, “Mandatory Procedures for Major Defense Acquisition Programs
(MDAPs) and Major Automated Information System (MAIS) Acquisition Programs.”

Management Comments. The Program Executive Officer, Ground Combat and
Support Systems, concurred with the recommendations and stated that his office will
continue to review all programs under his cognizance to ensure that the systems have an
adequate acquisition strategy, are affordable, and are fully funded. The Program
Executive Office also provided comments and recommended changes to selected
statements in the report. A discussion of the management comments is in the Finding
section of the report, and the complete text is in the Management Comments section.

Audit Response. The comments from the Program Executive Officer, Ground Combat
and Support Systems, were partially responsive. The Program Executive Officer did
not identify what actions his office will take to discontinue further research,
development, test, and evaluation funding for demonstration and validation of the
ATAS. Accordingly, we request that the Program Executive Officer provide additional
comments by April 30, 2001.




                                          ii
Table of Contents

Executive Summary                                                        i

Introduction
     Background                                                          1
     Objectives                                                          2

Finding
     Establishing a Viable Acquisition Strategy                         3

Appendixes
     A. Audit Process
          Scope and Methodology                                         11
          Management Control Program Review                             12
          Prior Coverage                                                13
     B. Definitions of Technical Terms                                  14
     C. Acquisition Strategy, Full-Funding, and Management Control
          Evaluation Policy                                             19
     D. Technology Demonstrations in Relation to the Army Science and
          Technology Program Process                                    21
     E. Audit Responses to Army Comments Concerning the Report          24
     F. Report Distribution                                             27

Management Comments
     Department of the Army                                             29
Background
            The Army uses the Advanced Tank Armament System (ATAS), an Army
            Acquisition Category III program, to conduct various technology demonstrations
            that support other programs. From February 1990 through December 1995, the
            ATAS technology demonstrations concentrated on developing a common fire
            control system for a family of combat vehicles, including a new main battle tank
            that the Army canceled in December 1995. From January 1996 through
            September 2000, the Army primarily focused the ATAS on the Abrams tank as
            the platform for its technology demonstrations, such as an advanced fire control
            system, an automatic target tracker system, a longer cannon barrel, and
            improved armament. Beginning in October 2000, the Army planned to
            terminate earlier ATAS demonstrations, except for the tank and medium caliber
            armaments demonstrations,1 and to initiate new technology demonstrations for
            the Abrams tank and the Bradley Fighting Vehicle Systems. The new
            technology demonstrations include a fire control system for new ammunition, an
            accuracy upgrade to the existing fire control system for the Abrams, and a
            larger cannon for the Bradley. General Dynamics Land Systems, Raytheon
            Systems, and Rheinmetall are the contractors for the ATAS technology
            demonstrations. Appendix B provides definitions of technical terms used in this
            report.

            The Project Manager, Tank and Medium Caliber Armament Systems, functions
            as the lead materiel developer for the ATAS with overall management and
            integration responsibility and reports to the Program Executive Officer, Ground
            Combat and Support Systems, who is the milestone decision authority for the
            ATAS. In FY 2000, the Project Office, Tank and Medium Caliber Armament
            Systems, transferred the drawings for an electronic muzzle reference system to
            the Abrams Program Office to cost-effectively eliminate radioactively generated
            light sources from the Abrams tank muzzle reference system; however, the
            Army does not have funding for the electronic muzzle reference system. The
            Project Office also transferred a fire control system simulator to the Future
            Scout and Cavalry System Advanced Technology Demonstration (the Future
            Scout). However, the Army has no plans to acquire the Future Scout.

            The Army has had the ATAS in the program definition and risk reduction phase2
            of the acquisition process since August 1989. However, the Army had no plans
            to transition the ATAS from the program definition and risk reduction phase to
            the engineering and manufacturing phase or to the production phase. The
            ATAS receives its funding under the Demonstration and Validation Program
            Element, “Advanced Tank Armament System.”3 In September 2000, the
            program element included about $412.9 million in research, development, test,
            and evaluation funding from FY 2000 through FY 2007 to support the


1
    Named the Advanced Tank Armament System before September 1999.
2
    Previously called the demonstration and validation phase of the acquisition process.
3
 The demonstration and validation program element funding is only available for program definition and
risk reduction efforts.

                                                       1
        demonstration and validation of two projects: the Tank and Medium Caliber
        Armaments that is the ATAS, totaling about $22.9 million, and the Interim
        Armored Vehicle family,4 totaling about $390 million.

Objectives
        The primary audit objective was to evaluate the overall management of the
        ATAS. Because the ATAS was in the program definition and risk reduction
        phase, we evaluated whether management was cost-effective in readying the
        system for the engineering and manufacturing development phase of the
        acquisition process. We also evaluated the management control program as it
        related to the audit objectives. See Appendix A for a discussion of the audit
        scope and methodology, the review of the management control program, and
        prior coverage related to the audit objectives.




4
 Because of the urgency of the Army transformation to the Brigade Combat Team concept that will be
capable of deployment to anywhere on the globe in a combat ready configuration, the Army placed the
funding for the Interim Armored Vehicle family in the ATAS program element until it establishes a
separate program element for the acquisition of the Interim Armored Vehicle family.

                                                  2
           Establishing a Viable Acquisition
           Strategy
           The Army did not establish a viable acquisition strategy to develop and
           acquire the ATAS beyond the program definition and risk reduction
           phase. This condition occurred because the milestone decision authority
           did not consider the ATAS to be a program and therefore did not
           require:

                  •   full funding for the engineering manufacturing development
                      and production phases of the acquisition process, and

                  •   the same level of management control as Acquisition
                      Category I and II programs under his cognizance.

           Instead, the milestone decision authority considered the ATAS to be a
           program element for funding technology demonstrations but did not
           appropriately manage and fund ATAS as a technology demonstration.
           As a result, the Army obligated about $85.8 million in research,
           development, test, and evaluation funds through FY 2000 and planned to
           obligate another $62.9 million from FY 2001 through FY 2007 for a
           program that the Army does not intend to develop and fund beyond the
           program definition and risk reduction phase of the acquisition process.
           On September 30, 2000, the Army reduced the FY 2001 through
           FY 2007 funding by about $42 million to about $20.9 million for the
           ATAS.

Acquisition Strategy, Full-Funding, and Management Control
  Evaluation Policy
    The following provides an overview of acquisition strategy, full-funding, and
    management control evaluation policy concerning the ATAS. Appendix C
    provides a detailed discussion of the policy.

    Acquisition Strategy Policy. The policy requires the program manager to
    develop and document an acquisition strategy serving as the roadmap for
    program execution from program initiation through post-production support and
    including the critical events that govern the management of the program.

    Full-Funding Policy. The policy requires that the program manager document
    full-funding in the Future Years Defense Program for acquisition programs that
    are beyond the milestone decision to enter the program definition and risk
    reduction phase in the acquisition process.

    Management Control Evaluations for Less-Than-Major Defense Acquisition
    Programs. The policy requires that the program executive officer use milestone
    decision documentation requirements in DoD Regulation 5000.2-R, “Mandatory
    Procedures for Major Defense Acquisition Programs (MDAPs) and Major


                                        3
           Automated Information System (MAIS) Acquisition Programs,” Change 4,
           May 11, 1999, as the key management controls for the management control
           evaluation of less-than-major Defense acquisitions.

Fulfilling Acquisition Management Requirements
           The Army did not establish a viable acquisition strategy to develop and acquire
           the ATAS. This occurred because the milestone decision authority did not
           consider the ATAS to be a program and therefore did not require:

                    •   full funding for the engineering and manufacturing development, and
                        production phases of the acquisition process and

                    •   the same level of management control as Acquisition Category I and
                        II programs.

           Acquisition Strategy and Program Reviews. The Program Executive Officer,
           Ground Combat and Support Systems (the Program Executive Officer), as the
           milestone decision authority, did not require the Project Office, Tank and
           Medium Caliber Armament Systems (the Project Office), to have an acquisition
           strategy and program reviews for the ATAS during the program definition and
           risk reduction phase of the acquisition process. Instead, the Program Executive
           Officer relied on quarterly status briefings and budget justification exhibits to
           oversee the ATAS. As a result, the Project Office did not prepare an
           acquisition strategy plan for program execution from program initiation through
           post-production support that included the critical events that govern the
           management of the ATAS.

           On October 7, 1996, the Deputy for Systems Management and Horizontal
           Technology Integration, Office of the Assistant Secretary of the Army for
           Research, Development, and Acquisition,5 issued a memorandum, stating that
           the Program Manager, Abrams Tank System, would manage and control future
           ATAS integration efforts for the Abrams tank beyond the then-current ATAS
           technology demonstrations. However, that program management transition has
           not occurred. If the Program Office, Abrams Tank System, assumes
           responsibility as directed in the memorandum for new ATAS technology
           demonstrations for the Abrams tank, it will need to prepare the required
           acquisition strategy documentation, in accordance with DoD
           Regulation 5000.2-R.

           Full-Funding Strategy. The Army funded the ATAS only for the program
           definition and risk reduction phase of the acquisition process. However, the
           Program Executive Officer did not consider the ATAS to be an acquisition
           program but instead a program element for funding technology demonstrations
           that he believed might eventually transition into a program, even though the
           ATAS entered the program definition and risk reduction phase of the acquisition
           process in August 1989. Further, the Program Executive Officer stated that the
           Office of the Army Deputy Chief of Staff for Operations and Plans and the user

5
    Renamed Office of the Assistant Secretary of the Army for Acquisition, Logistics, and Technology.

                                                     4
        representative, the Army Training and Doctrine Command, establish
        requirements and funding levels and not the Program Executive Office. As a
        result, the Program Executive Officer did not require the ATAS to be fully
        funded for the engineering manufacturing development and production phases of
        the acquisition process.

                Program Element Funding. Even though the Program Executive
        Officer did not consider the ATAS to be a program, the funding that the Army
        provided for the ATAS is for an acquisition program in the program definition
        and risk reduction phase of the acquisition process. The Army Research,
        Development, Test, and Evaluation Budget Item Justification (R-2 Exhibit),
        September 2000, Program Element No. 0603653A for the ATAS shows
        research, development, test, and evaluation funding for the demonstration and
        validation budget activity (6.4 funding). DoD Regulation 7000.14-R,
        “Financial Management Regulation, Volume 2A, Budget Presentation and
        Formulation,” June 2000, states that program elements in the demonstration and
        validation budget activity involve efforts in the program definition and risk
        reduction phase of the acquisition process. The R-2 Exhibit indicates that the
        ATAS technology demonstrations were funded by the Tank and Medium Caliber
        Armaments project, an Acquisition Category III program, that performs
        system-level demonstrations of lethality technology for the Bradley Fighting
        Vehicle, the Abrams tank, the Interim Armored Vehicle, and future forces.

               Technology Demonstration Requirements. Because the Program
        Executive Officer considered the ATAS to be a program element for funding
        technology demonstrations, the Army should have adhered to requirements in
        Army Pamphlet 70-3, “Research, Development, and Acquisition--Army
        Acquisition Procedures,” July 15, 1999, for ensuring that:

                          •    the ATAS technology demonstrations were within the Army
                               investment strategy and plans;
                          •    the Army used the appropriate type of research, development,
                               test, and evaluation funding for the ATAS; and
                          •    the appropriate Army organization designated and managed
                               the ATAS.

        According to the pamphlet, a technology demonstration shows whether a science
        and technology objective6 has successfully achieved its objectives, highlights a
        new technical capability developed in the science and technology community, or
        assesses the technical maturity of a capability identified outside of the science
        and technology objective community. In reference to the ATAS, the Army has


6
 A science and technology objective is a significant, reasonably predictable science and technology
achievement described by one or more specific, quantified technical objectives to be achieved by a
specific fiscal year. The objective is fully funded by 6.2 (applied research) or 6.3 (advanced technology
development) types of research, development, test, and evaluation funds. The responsible research and
development major command will assign a science and technology objective manager to manage and be
accountable for the timely achievement of each science and technology objective. The science and
technology objective should be achieved within 3 to 6 years of its initiation and must include measurable
and quantifiable results.

                                                    5
        not adhered to requirements in the pamphlet for funding technology
        demonstrations in the areas of investment strategy and plans, appropriate
        funding, appropriate management, and funding requirements.

                         Investment Strategy and Plans. The Army had not ensured that
        the ATAS technology demonstrations conformed to the Army science and
        technology vision, strategy, principles, and priorities. Army Pamphlet 70-3
        states that, after approval by the Army Science and Technology Working
        Group, the Army lists the science and technology objective in the Army Science
        and Technology Master Plan. The Secretary of the Army and the Chief of
        Staff, Army, approve the Plan, which the Deputy Assistant Secretary of the
        Army for Research and Technology normally updates and publishes annually.
        When asked whether the ATAS or any of its technology demonstrations were in
        the Plan, the Project Office stated that the ATAS was not because the ATAS
        was a system-level demonstration. The Project Office defines a system-level
        demonstration as a particular kind of prototyping that demonstrates a mature
        technology or technologies in a particular platform or product. Further, the
        Project Office stated that the system-level demonstrations occur during the
        program definition and risk reduction phase of the acquisition process.7
        Consequently, if ATAS is a systems-level demonstration occurring during the
        program definition and risk reduction phase of the acquisition process, then it is
        a program and not a technology demonstration.

                       Appropriate Funding. The Army had not used the appropriate
        research, development, test, and evaluation funding for the ATAS technology
        demonstrations. Army Pamphlet 70-3 states that technology demonstrations are
        funded with either 6.2 (applied research) or 6.3 (advanced technology
        development) types of research, development, test, and evaluation funds.
        Because the Program Executive Office considered the ATAS to be technology
        demonstrations, the Army should have funded the ATAS with applied research
        or advanced technology development funds instead of 6.4 (demonstration and
        validation) type of research, development, test, and evaluation funds.

                         Appropriate Management. The Army had not appropriately
        designated the ATAS as a technology demonstration. Army Pamphlet 70-3
        states that the technical director of a science and technology activity, such as the
        Armament, Research, Development and Engineering Center, can designate a
        new technology capability as a technology demonstration to show that it has
        potential application to an advanced technology demonstration, advanced
        concept technology demonstration, or systems acquisition program.
        Appendix D further discusses technology demonstrations as part of the Army
        Science and Technology Program.

        If the Program Executive Officer insists that the ATAS is a technology
        demonstration and not an acquisition program as defined in the DoD 5000 series
        of regulations, he should discontinue the ATAS as an acquisition program and
        request that the Technical Director, Armament, Research, Development and
        Engineering Center, designate the ATAS as a technology demonstration that is

7
 Appendix B contains the Program Manager, Tank and Medium Caliber Armament Systems, definition of
a system-level demonstration.

                                               6
        properly funded with either applied research or advanced technology
        development types of research, development, test, and evaluation funds and is
        subject to oversight by the Army Science and Technology Working Group.

                Requirement for Full Funding. Because the Army funded the ATAS
        with only research, development, test, and evaluation funding for demonstration
        and validation, the Program Executive Officer should not allow the ATAS to
        continue in the program definition and risk reduction phase of the acquisition
        process until the Army fully funds the ATAS for engineering, manufacturing
        and development and procurement. Even though the Program Executive Officer
        stated that the Office of the Army Deputy Chief of Staff for Operations and
        Plans and the user representative established requirements and funding levels for
        the ATAS, the Program Executive Officer, as the milestone decision authority,
        is responsible for ensuring that the ATAS has sufficient resources. DoD
        Regulation 5000.2-R requires that the milestone decision authority not approve
        an acquisition program proceeding into the program definition and risk
        reduction phase and beyond unless sufficient resources, including staffing, are
        programmed in the most recently approved Future Years Defense Program, or
        will be programmed in the next Program Objectives Memorandum, Budget
        Estimate Submission, or President’s Budget.

        Management Control Reviews. The management control program that the
        Program Executive Office implemented did not ensure that the Project Office,
        Tank and Medium Caliber Armament Systems, prepared and maintained
        required ATAS acquisition strategy documentation, in accordance with DoD
        Regulation 5000.2-R. To evaluate key management controls for less-than-major
        Defense acquisition programs, the Army uses milestone decision documentation,
        including an acquisition strategy. Instead of using milestone decision
        documentation, the Program Executive Office tailored the management control
        process by conducting quarterly reviews and analyses with each of the program
        managers under his cognizance. At the quarterly reviews, the attendees8
        discussed the program’s status and plans, along with affordability and
        integration issues. However, because the Program Executive Officer did not
        consider the ATAS to be a program, it did not receive the same intensive level
        of management as Acquisition Category I and II programs receive at the
        quarterly reviews. Consequently, the Program Executive Officer did not ensure
        that the ATAS had an acquisition strategy and was fully funded. For example,
        the August 2000 briefing charts for the ATAS quarterly review did not identify
        the lack of an ATAS acquisition strategy and full funding as management
        control weaknesses and recommend corrective action.




8
 The attendees include representatives from the offices of the Program Executive Officer, Ground
Combat and Support Systems; the Program Manager, Tank and Medium Caliber Armament Systems; and
the Army Training and Doctrine Command. Representatives for the Training and Doctrine Command
attended two of the last four quarterly reviews.

                                               7
Effect of Continuing the Advanced Tank Armament System
  Program Without Procurement Funds
        Without a viable acquisition strategy for the ATAS, the Army obligated about
        $85.8 million in research, development, test, and evaluation funds through
        FY 2000 and planned to obligate another $62.9 million from FY 2001 through
        FY 2007 for a program that the Army does not intend to fund for the
        engineering and manufacturing development phase and the production phase of
        the acquisition process. However, on September 30, 2000, the Army reduced
        the FY 2001 through FY 2007 funding for the ATAS by about $42 million to
        about $20.9 million in the September 2000 R-2 Exhibit.

        Efforts Planned For Future Technology Demonstrations. Of the
        $20.9 million in research, development, test, and evaluation funds for FY 2001
        through FY 2007, about $12.2 million was for FY 2002 through FY 2007.
        Because of the reduced funding, the Program Office, Tank and Medium Caliber
        Armament Systems (the Program Office), plans to use modeling and simulation
        instead of some technology demonstrations and to provide system-level
        technology demonstrations for the Bradley Fighting Vehicle, the Abrams tank,
        the Interim Armored Vehicle, and future forces. Those technology
        demonstrations include gun improvements, extended range munitions fire
        control, gun barrel straightening, and medium caliber modeling and simulation.

        Funds Put to Better Use. By discontinuing further research, development,
        test, and evaluation funding for demonstration and validation of the ATAS until
        the system is ready to proceed in the program definition and risk reduction
        phase of the acquisition, the Army could put the remaining $20.9 million9 of
        research, development, test, and evaluation funds for program demonstration
        and validation to better use, along with the $42 million previously
        reprogrammed by the Army. Accordingly, the Army would unnecessarily
        spend $20.9 million in program funds on an acquisition program that consists of
        technology demonstration efforts that may or may not become a part of existing
        programs, new product improvement programs, or a new acquisition program.
        Under these circumstances, the prudent course of action would dictate that
        Army management discontinue the ATAS technology demonstration efforts and
        put unobligated funds to better use.

Management Comments on the Finding and Audit Responses
        Summaries of management comments on the finding and our responses are in
        Appendix E.



9
 The Program Manager, Tank and Medium Caliber Armament Systems, planned a total of
$20.989 million of research, development, test and evaluation funding for ATAS in FYs 2001 through
2007. The planned funding includes $8.754 million in FY 2001, $1.996 million in FY 2002,
$1.982 million in FY 2003, $1.317 million in FY 2004, $1.981 million in FY 2005, $1.981 million in
FY 2006, and $2.978 million in FY 2007.

                                                 8
Recommendations, Management Comments, and Audit
  Responses
    We recommend that the Program Executive Officer, Ground Combat and
    Support Systems:

          1. Discontinue further research, development, test, and evaluation
    funding for demonstration and validation of the Advanced Tank Armament
    System.

    Management Comments. The Program Executive Officer, Ground Combat
    and Support Systems, concurred with the recommendation. The complete text is
    in the Management Comments section of this report.

    Audit Response. The Program Executive Officer’s comments did not specify
    what actions he will take to discontinue further research, development, test, and
    evaluation funding for demonstration and validation of ATAS. Therefore, we
    request that the Program Executive Officer provide additional comments
    specifying what actions he will take to implement the recommendation.

           2. Tailor the Army management control program to ensure that
    systems under his cognizance in the program definition and risk reduction
    phase of the acquisition process implement an acquisition strategy that
    meets the intent of DoD Regulation 5000.2-R, “Mandatory Procedures for
    Major Defense Acquisition Programs (MDAPs) and Major Automated
    Information System (MAIS) Acquisition Programs.”

    Management Comments. The Program Executive Officer, Ground Combat
    and Support Systems, concurred, stating that his office has and will continue to
    review all programs under his cognizance to ensure that the systems have an
    adequate acquisition strategy and are affordable and fully funded. Further, he
    stated that his office will conduct a review of programs under his cognizance at
    the beginning of each fiscal year to determine which programs are due for a
    milestone review. He cited the Electronic Muzzle Reference Sensor as an
    example of an ATAS effort for which his office ensured that the appropriate
    organizations prepared and approved all documentation required in DoD
    Regulation 5000.2-R. He also stated that the Army will prepare and approve, as
    required, updates to the acquisition strategy throughout the life cycle.

    Audit Response. The Program Executive Officer’s action to review all
    programs to ensure that the systems under his cognizance have an adequate
    acquisition strategy and are affordable and fully funded meets the intent of our
    recommendation. However, to cite the Electronic Muzzle Reference Sensor as
    an example of an ATAS effort that complied with DoD Regulation 5000.2-R
    documentation is misleading. The Sensor was not an acquisition program, but
    instead a technology demonstration, the drawings for which the Project Office,
    Tank and Medium Caliber Armament Systems, transferred to the Abrams
    Program Office. Because the Sensor was a technology demonstration, DoD and



                                        9
Army guidance did not require the Project Office to prepare any of the DoD
Regulation 5000.2-R documentation, such as the acquisition strategy, before
transferring the drawings to the Abrams Program Office.




                                  10
Appendix A. Audit Process

Scope and Methodology
    We conducted the audit from June through December 2000 and reviewed
    documentation dated from September 1990 to October 2000. We interviewed
    and obtained documentation from the staffs of the Assistant Secretary of the
    Army (Acquisition, Logistics, and Technology); the Army Deputy Chief of
    Staff for Operations and Plans; the Army Armor Center; the Program Executive
    Office, Ground Combat Systems and Support; the Program Office, Tank and
    Medium Caliber Armament Systems; and the Program Office, Abrams Tank
    Systems. Because the ATAS was in the program definition and risk reduction
    phase, the audit concentrated on whether management was cost-effectively
    readying the system for the engineering and manufacturing development and
    production phases of the acquisition process. Consequently, we focused our
    review on the areas of requirements generation, acquisition planning, program
    assessments and decision reviews, and test and evaluation.

    Auditing Standards. We conducted this program audit in accordance with
    auditing standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD, and accordingly included such
    tests of management controls as we deemed necessary.

    Use of Computer-Processed Data. We did not rely on computer-processed
    data to perform this audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD. Further details are available on request.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following corporate level goal and subordinate
    performance goal.

           •   FY 2001 DoD Corporate Level Goal 2: Prepare now for an
               uncertain future by pursuing a focused modernization effort that
               maintains U.S. qualitative superiority in key warfighting capabilities.
               Transform the force by exploiting the Revolution in Military Affairs,
               and reengineer the Department to achieve a 21st century
               infrastructure. (01-DoD-2)

           •   FY 2001 Subordinate Performance Goal 2.4: Meet combat forces’
               needs smarter and faster, with products and services that work better
               and cost less, by improving the efficiency of DoD’s acquisition
               processes. (01-DoD-2.4)



                                        11
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Weapons Systems Acquisition high-risk area.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. In accordance
    with DoD Regulation 5000.2-R, acquisition managers are to use program cost,
    schedule, and performance parameters as control objectives to implement the
    requirements of DoD Directive 5010.38. Accordingly, we limited our review to
    management controls directly related to requirements generation, acquisition
    planning, program assessments and decision reviews, and test and evaluation.
    We reviewed management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified a material management
    control weakness for the ATAS as defined by DoD Instruction 5010.40. The
    Program Executive Office, Ground Combat and Support Systems, management
    controls for implementing the Defense acquisition process were not adequate to
    ensure that that the Project Office, Tank and Medium Caliber Armament
    Systems, prepared and maintained the required ATAS acquisition strategy
    documentation, in accordance with DoD Regulation 5000.2-R.
    Recommendation 2., if implemented, will improve management controls over
    the ATAS and could result in potential monetary benefits of $20.9 million (see
    Finding section). We will provide a copy of the report to the senior official
    responsible for management controls in the Department of the Army.

    Adequacy of Management’s Self-Evaluation. Instead of using milestone
    decision documentation, including an acquisition strategy, to evaluate key
    management controls for less-than-major Defense acquisition programs, the
    Program Executive Officer, Ground Combat and Support Systems, tailored his
    management control program reviews by conducting quarterly reviews and
    analyses with each of the program managers under his cognizance. Because the
    Program Executive Officer did not consider the ATAS to be a program, he did
    not require the same intensive level of management control as Acquisition
    Category I and II programs under his cognizance. For example, the August
    2000 briefing charts for the ATAS quarterly review did not identify the lack of
    an ATAS acquisition strategy and full funding as management control
    weaknesses and recommend corrective action. Therefore, the Program
    Executive Officer did not identify or report the material management control
    weakness identified by the audit.




                                       12
Prior Coverage
    During the last 5 years, the Army Audit Agency issued Report No. AA 96-252,
    “Advanced Tank Armament Systems Program,” August 12, 1996, that
    addressed program requirements for the ATAS.




                                     13
Appendix B. Definitions of Technical Terms
   Acquisition Category III. Acquisition Category (ACAT) III programs are
   defined as those acquisition programs that do not meet the research,
   development, test, and evaluation and procurement dollar thresholds for an
   ACAT I, major Defense acquisition program; an ACAT IA, major automated
   information system; or an ACAT II, major system. The milestone decision
   authority is designated by the Component Acquisition Executive and will be at
   the lowest appropriate level.

   Acquisition Strategy. An acquisition strategy is a business and technical
   management approach designed to achieve program objectives within the
   resource constraints imposed. It is the framework for planning, directing,
   contracting for, and managing a program. It provides a master schedule for
   research, development, test, production, fielding, modification, postproduction
   management, and other activities essential for program success. The acquisition
   strategy is the basis for formulating functional plans and strategies.

   Advanced Concept Technology Demonstration. An advanced concept
   technology demonstration is a DoD-sponsored program to assess the utility of a
   near-term, easy-to-field technology solution that responds to military needs that
   the Joint Requirements Oversight Council has validated. The demonstration
   evaluates the military value of advanced technologies through a large-scale
   experiment with an operational unit for a two-year period. By the end of the
   evaluation period, the Army decides whether to proceed with acquisition of the
   concept based on the results of the assessment. The Commander, Training and
   Doctrine Command, approves the Army’s advanced concept technology
   demonstrations.

   Advanced Technology Demonstration. An advanced technology
   demonstration is a technology demonstration characterized by being relatively
   large scale in resources and complexity but typically focused on a individual
   system or subsystem; having a finite schedule, typically 5 years or less;
   containing cost, schedule, and objective performance baselines in an advanced
   technology demonstration management plan that the Deputy Assistant Secretary
   of the Army for Research and Technology approves. The Army designs each
   advanced technology demonstration to meet or exceed exit criteria that the user
   and the advanced technology demonstration manager agree on at program
   inception. The Training and Doctrine Command and the materiel developer
   actively participate in the demonstration.

   Army Science and Technology Advisory Group. The Army Science and
   Technology Advisory Group provides four-star-level oversight of the Army
   Science and Technology Program, which the Assistant Secretary of the Army
   for Acquisition, Logistics, and Technology and the Vice Chief of Staff, Army,
   co-chair.

   Army Science and Technology Master Plan. The Army Science and
   Technology Master Plan (the Plan) provides explicit, resource-constrained
   guidance to the Army’s science and technology organizations, consistent with

                                       14
the National Military Strategy, Defense Planning Guidance, and the Army’s
force modernization plans to achieve a trained and ready modern Army. The
Deputy Assistant Secretary for Research and Technology annually updates and
publishes the Plan, which the Secretary of the Army and the Chief of Staff,
Army, approve.

Army Science and Technology Program. The Army Science and Technology
Program demonstrates new and emerging technologies that it intends to
implement into future military systems to support military needs, solve military
problems, and provide a sound basis for acquisition decisions. The Army
Science and Technology Program consists of basic research (6.1), applied
research (6.2), and advanced technology development (6.3) programs.

Army Science and Technology Working Group. The Army Science and
Technology Working Group (the Working Group) is co-chaired by the Deputy
Assistant Secretary of the Army for Research and Technology and the Army
Assistant Deputy Chief of Staff for Force Development. The Working Group
provides two-star-level resolution of pressing science and technology issues
before meetings of the Army Science and Technology Advisory Group;
recommends to the Army Science and Technology Advisory Group revisions to
the Army’s science and technology vision, strategy, principles, and priorities;
and reviews and approves new and continuing advanced technology
demonstrations and science and technology objectives.

Budget Estimate Submission. A budget estimate submission is a DoD
Component’s submission to the Office of the Secretary of Defense that shows its
estimated budget requirements for inclusion in the DoD budget.

Budget Justification Exhibit. A budget justification exhibit is a document that
DoD prepares and submits to Congress to support program element budget
estimates for appropriation categories, such as research, development, test, and
evaluation.

Combat Developer. The combat developer is a command or agency that
formulates doctrine, concepts, organization, materiel requirements, and
objectives. The term can be used generically to represent the user community in
the acquisition process.

Defense Planning Guidance. Defense Planning Guidance is a document that
the Secretary of Defense issues every odd year to DoD Components to provide
strategic framework for developing the Military Departments’ Program
Objectives Memorandum. The document is the result of planning by the Joint
Staff, OSD, and the Military Departments.

Demonstration and Validation Program Element. The demonstration and
validation program element includes funding for all program definition and risk
reduction efforts necessary to evaluate integrated technologies in an as realistic
as possible operating environment to assess the performance or cost reduction
potential of advanced technology. The program definition and risk reduction
phase is system specific and includes advanced technology demonstrations that



                                    15
help expedite technology transition from the laboratory to operational use. A
logical progression of program development or production phases, or both, must
be evident in the Future Years Defense Program.

Engineering and Manufacturing Development. The objective of the
engineering and manufacturing development phase in the acquisition process is
to translate the most promising design approach into a stable, interoperable,
producible, and cost-effective design; validate the manufacturing process; and
demonstrate system capabilities through testing. The intended output of the
phase is, as a minimum, a preproduction system which closely approximates the
final product, the documentation necessary to enter the production phase, and
the test results which demonstrate that the production product will meet stated
requirements.
Full Funding. Full funding is a DoD policy that applies to research,
development, test, and evaluation; procurement; and military construction
appropriation accounts, and is defined in the DoD Financial Management
Regulation. Full funding incorporates two related, but different policies. The
first states that a DoD Component must identify and set aside sufficient funds in
its Future Years Defense Program to cover the Component’s best estimate of the
annual cost for the program in each fiscal year of the Future Years Defense
Program. The second states that full funding is the annual appropriation of
funds for the total estimated costs to be incurred in the delivery of a given
quantity of a usable end item.

Future Years Defense Program. The Future Years Defense Program is the
official DoD document that summarizes the forces and resources associated with
programs approved by the Secretary of Defense. Its three parts are the
organizations affected, appropriations accounts, and the 11 major force
programs

Lethality. Lethality is the probability that a weapon will destroy the target or
render it neutral.

Materiel Developer. A materiel developer is a command or agency responsible
for research and development and production validation of an item.

Milestone Decision Authority. The milestone decision authority is the
individual designated in accordance with criteria established by the Under
Secretary of Defense for Acquisition, Technology, and Logistics to approve
entry of a program into the next phase of the acquisition process.

National Military Strategy. The National Military Strategy is a document that
the Joint Staff develops to provide the advice of the Chairman, Joint Chiefs of
Staff, in consultation with the other members of the Joint Chiefs of Staff and the
Commanders-in-Chief, to the President, the National Security Council, and the
Secretary of Defense concerning national military strategy.

Prototype. A prototype is an original or model on which a later system or item
is formed or based. Early prototypes may be built during the program definition



                                    16
and risk reduction phase of the acquisition process and tested before the
milestone decision to enter the engineering and manufacturing demonstration
phase of the acquisition process.

President’s Budget. The President’s budget is the Federal Government’s
budget for a particular fiscal year, transmitted on the first Monday in February
to the Congress by the President in accordance with the Budget Enforcement
Act of 1992. It includes all agencies and activities of the executive, legislative,
and judicial branches.

Program Definition and Risk Reduction. The program definition and risk
reduction phase of the acquisition process consists of steps necessary to verify
preliminary design and engineering, build prototypes, accomplish necessary
planning, and fully analyze trade-off proposals. The objective is to validate the
choice of alternatives and to provide the basis for determining whether to
proceed into engineering and manufacturing development.

Program Objectives Memorandum. The Program Objectives Memorandum is
an annual memorandum submitted to the Secretary of Defense by the DoD
Component heads that recommends the total resource requirements and
programs within the parameters of the Secretary of Defense’s fiscal guidance. It
is the principal programming document that details how a DoD Component
proposes to respond to assignments in the defense planning guidance and satisfy
its assigned functions in the Future Years Defense Program. The Program
Objectives Memorandum shows programmed needs for 5 or 6 years hence, and
includes staffing, force levels, procurement, facilities, and research and
development.

Quarterly Status Briefing. A quarterly status briefing is a review and analysis
that ATAS management presents on a quarterly basis to the program executive
office concerning the status of program technology demonstrations.

Research, Development, Test, and Evaluation. Research, development, test,
and evaluation are activities for the development of a new system that include
basic and applied research, advanced technology development, demonstration
and validation, engineering development, developmental and operational testing,
and the evaluation of test results.

Science and Technology Objective. A science and technology objective is a
significant, reasonably predictable science and technology achievement, fully
funded by applied research or advanced technology development research,
development, test, and evaluation funds, and is described by one or more
specific, quantified technical objectives to be achieved by a specific fiscal year.
The science and technology objective should be achieved within 3 to 6 years of
initiation and must include measurable and quantifiable results.

System-Level Demonstration. The Program Office, Tank and Medium Caliber
Armament Systems, defines a system-level demonstration as a particular kind of
prototyping that demonstrates a mature technology or technologies in a
particular platform or product. The purpose of the demonstration is to assess
how the technology performs from an engineering and limited operational
viewpoint when the technology is integrated into a platform, such as the Abrams

                                     17
tank or the Bradley Fighting Vehicle. In any platform, a large number of
systems interact with each other from a mechanical, electrical, chemical, or
software standpoint. For example, when new technologies are integrated into
the platform, the program manager cannot predict how each technology will
interact with other platform systems under all conditions. However, by
conducting a system-level demonstration, the program manager can identify any
potential interaction problems before the Government goes into the final
production design. Consequently, the system-level demonstration minimizes the
risk of entering engineering manufacturing and development or production.

Technology Demonstration. A technology demonstration demonstrates the
feasibility and practicality of a technology for solving specific military
deficiencies and occurs during applied research or advanced technology
development, or both. A technology demonstration demonstrates that a science
and technology objective has successfully achieved its objectives, highlights a
new technology capability developed in the science and technology community,
or assesses the technical maturity of a capability identified outside the science
and technology community.




                                    18
Appendix C. Acquisition Strategy, Full-Funding,
            and Management Control
            Evaluation Policy
        The following discusses relevant policy concerning acquisition strategy,
        full-funding, and management control evaluation for the ATAS.

        Acquisition Strategy Policy. DoD Regulation 5000.2-R, “Mandatory
        Procedures for Major Defense Acquisition Programs (MDAPs) and Major
        Automated Information System (MAIS) Acquisition Programs,” Change 4,
        May 11, 1999;10 and Army Regulation 70-1, “Research, Development, and
        Acquisition, Army Acquisition Policy,” January 15, 1998, provide acquisition
        strategy policy.

               DoD Regulation 5000.2-R. DoD Regulation 5000.2-R requires the
        program manager to develop and document an acquisition strategy serving as the
        roadmap for program execution from program initiation through post-production
        support and includes the critical events that govern the management of the
        program. The primary goal of the acquisition strategy is to minimize the time
        and cost of satisfying an identified, validated need, consistent with common
        sense and sound business practices.

               Army Regulation 70-1. Army Regulation 70-1 requires the program
        manager for an acquisition program to develop the acquisition strategy and the
        milestone decision authority to review and approve the acquisition strategy at
        milestone decision points.

        Full-Funding Policy. DoD Regulation 5000.2-R; DoD Regulation 7000.14-R,
        “Financial Management Regulation, Volume 2A, Budget Presentation and
        Formulation,” June 2000; Army Regulation 70-1; and Army Pamphlet 70-3,
        “Research, Development, and Acquisition--Army Acquisition Procedures,”
        July 15, 1999, define requirements for full funding of acquisition programs at
        program initiation.

               DoD Regulation 5000.2-R. DoD Regulation 5000.2-R requires that the
        milestone decision authority assess affordability at each milestone decision point
        beginning with program initiation.

                DoD Regulation 7000.14-R. DoD Regulation 7000.14-R states that a
        logical progression of program phases and development and production funding
        must be evident in the Future Years Defense Program for all programs that are
        beyond the milestone decision to enter the program definition and risk reduction
        phase in the acquisition process.



10
  DoD initially issued DoD Regulation 5000.2-R on March 15, 1996, which included the acquisition
strategy guidance and full-funding guidance, discussed later.

                                                 19
        Army Regulation. Army Regulation 70-1 requires program managers
to follow guidance and procedures contained in DoD Regulation 5000.2-R for
all Army acquisition programs.

       Army Pamphlet. Army Pamphlet 70-3 supplements DoD
Regulation 5000.2-R and requires that full funding, which is the total cost for
developing, procuring, and sustaining an acquisition program, be shown in the
most recent Future Years Defense Program for all Army acquisition programs.
Further, the Pamphlet discusses the science and technology program, including
technology demonstrations.

Management Control Evaluations for Less-Than-Major Defense Acquisition
Programs. Army Regulation 11-2, “Army Programs, Management Control,”
August 1, 1994, and Army Regulation 70-1 provide Army policy concerning
management controls for less-than-major Defense acquisition programs.

       Army Regulation 11-2. Army Regulation 11-2 requires the program
executive office to prepare a written plan for conducting required management
control evaluations for acquisition programs under its cognizance, to keep the
plan current, and to use the plan to monitor progress to ensure that management
control evaluations are conducted as scheduled.

        Army Regulation 70-1. Army Regulation 70-1 identifies the key
management controls for the management control evaluation of less-than-major
Defense acquisitions as the milestone decision documentation requirements
specified in DoD Regulation 5000.2-R. Further, the Regulation requires the
program executive officer to evaluate those key management controls using the
milestone decision review process.




                                   20
Appendix D. Technology Demonstrations in
            Relation to the Army Science and
            Technology Program Process
   Army Pamphlet 70-3, “Research, Development, and Acquisition--Army
   Acquisition Procedures,” July 15, 1999, discusses the technology demonstration
   and its interaction with the Army Science and Technology Program.

   Army Science and Technology Program. The Army Science and Technology
   Program (the Program) consists of projects, including technology
   demonstrations, in basic research, applied research, and advanced technology
   development. The Army uses the Program to demonstrate new and emerging
   technologies that it intends to implement into future military systems to support
   military needs, solve military problems, and provide a sound basis for
   acquisition decisions. The Program, as described in the Army Science and
   Technology Master Plan, identifies the science and technology investments
   needed to achieve the Army’s vision to timely demonstrate affordable
   technology and weapon system concepts.

   Army Science and Technology Master Plan. The Army Science and
   Technology Master Plan (the Plan) provides explicit, resource-constrained
   guidance to the Army’s science and technology organizations, consistent with
   the National Military Strategy, Defense Planning Guidance, and the Army’s
   force modernization plans to achieve a trained and ready modern Army. The
   Deputy Assistant Secretary for Research and Technology annually updates and
   publishes the Plan, which the Secretary of the Army and the Chief of Staff,
   Army, approve. The Plan:

          •   provides top-down guidance to the Army science and technology
              community;

          •   enhances the leveraging of other service, industry, and academia
              investments;

          •   responds to White House, congressional, DoD, and Department of
              the Army guidance and interests;

          •   focuses science and technology investment at critical mass level on
              relevant technologies;

          •   significantly improves science and technology stability, quality,
              relevance, and efficiency;

          •   achieves more support for the science and technology investment
              through an improved understanding of the Army’s investment
              strategy and plans; and

          •   addresses the Army’s complete science and technology program from
              a variety of perspectives, such as budget program categories for

                                       21
           6.1 (basic research), 6.2 (applied research), and 6.3 (advanced
           technology development); Defense and Army technology areas;
           science and technology investment in support of the Army
           Modernization Plan; supporting capabilities; and technology transfer
           and leveraging.

The Plan contains a finite set of funded, high-priority science and technology
objectives, as well as descriptions of Army advanced technology
demonstrations.

        Science and Technology Objective. A science and technology objective
is a significant, reasonably predictable science and technology achievement
described by one or more specific, quantified technical objectives to be achieved
by a specific fiscal year. The objective is fully funded by applied research (6.2)
or advanced technology development (6.3) types of research, development, test,
and evaluation funds. The responsible research and development major
command will assign a science and technology objective manager to manage and
be accountable for the timely achievement of each science and technology
objective. The science and technology objective should be achieved within 3 to
6 years of its initiation and must include measurable and quantifiable results.

        Science and Technology Review. The Army Training and Doctrine
Command conducts an annual review of all Army 6.1 (basic research),
6.2 (applied research), and 6.3 (advanced technology development) science and
technology work to give the combat developer an opportunity to review and
assess the relevance of the science and technology work efforts. The annual
review also provides feedback to the materiel developers on the relative merits
of each science and technology effort. The Army Training and Doctrine
Command uses the results from the annual review to identify potential science
and technology objective candidates and serves as the executive agent on behalf
of the Deputy Assistant Secretary of the Army for Research and Technology,
who co-chairs the Army Science and Technology Working Group along with the
Assistant Deputy Chief of Staff for Operations and Plans, Force Development
Directorate.

Based on formal developmental milestones and achievement measures, the Army
Science and Technology Working Group approves each science and technology
objective, as well as advanced technology demonstrations, based on reviews and
recommendations by its Technical Council. After approval, the Army lists the
science and technology objective in the Army Science and Technology Master
Plan. The Secretary of the Army and Chief of Staff approve the Army Science
and Technology Master Plan, which the Deputy Assistant Secretary of the Army
for Research and Technology normally updates and publishes annually.

Technology Demonstration. A technology demonstration demonstrates the
feasibility and practicality of a technology for solving specific military
deficiencies and occurs during 6.2 (applied research) or 6.3 (advanced
technology development) or both. A technology demonstration shows whether a
science and technology objective has successfully achieved its objectives,
highlights a new technical capability developed in the science and technology
community, or assesses the technical maturity of a capability identified outside
of the science and technology objective community. The technical director of a

                                    22
science and technology activity, such as the Armament, Research, Development
and Engineering Center, can designate a new technology capability as a
technology demonstration to show that it has potential application for transition
to an advanced technology demonstration, advanced concept technology
demonstration, or systems acquisition program. The activity directors have
sufficient flexibility, resources, and authority to initiate projects, explore
promising avenues of research and development, and exploit identified science
and technology opportunities beyond those discussed in the Army Science and
Technology Master Plan. However, budget reductions have reduced this
flexibility.

Technology Transition. Generally, the transition point from the demonstration
of technology in one or more science and technology projects to a formal
acquisition program for a new system occurs at the milestone decision to enter
the program definition and risk reduction phase of the acquisition process. This
transition occurs after the Army has approved a validated need and has proven
that technologies critical to performance are measurable and quantifiable. The
Army can also introduce the proven technologies into existing acquisition
programs at predetermined points in the program definition and risk reduction
phase, engineering manufacturing development phase, and acquisition phases as
specified in the acquisition strategy of that program.

The procedures for transitioning technologies resulting from a technology
demonstration into an acquisition program depends on whether the technology is
going into a new or an existing acquisition program. If the transition is into a
new acquisition program, the transition will follow DoD Regulation 5000.2-R
procedures for a milestone decision to enter the program definition and risk
reduction phase of the acquisition process. If the transition is to an existing
program, the timing and circumstances for transitioning the technology from the
technology demonstration should be negotiated between the science and
technology developer and the gaining systems manager or program manager.
Before transition into a new or an existing acquisition program, the Army must
have thoroughly tested the new technical capability and demonstrated predicable
performance of the new technical capability. Further, the new capability system
or system upgrade must have a clear and verified military need and must be
cost-effective.




                                   23
Appendix E. Audit Responses to Army
            Comments Concerning the Report
   Our detailed responses to the comments from the Army Program Executive
   Officer, Ground Combat and Support Systems (the Program Executive Officer),
   on statements in the finding of the draft report follows. The complete text of
   those comments is in the Management Comments section of this report.

   Management Comments. The Program Executive Officer provided comments
   that specifically addressed the audit background; ATAS system demonstrations;
   acquisition guidance; types of research, development, test, and evaluation funds;
   and program funding. The following discusses those specific comments and the
   audit response.

          Audit Background. The Program Executive Officer clarified when the
   ATAS program began. The audit report background states that, “Since August
   1989, the ATAS has been in the program definition and risk reduction phase of
   the acquisition process.” He stated that, in FY 1994, the Army initiated ATAS
   that was proceeded by two system level technology demonstration programs:
   the Weapons and Munitions Advanced Technology Program from 1989 through
   1990 and the Advanced Tank Cannon Program that the Army canceled in
   FY 1994. Further, he stated that, from FY 1995 through FY 1999, the program
   element for ATAS consisted of a single project called the ATAS project. He
   added that, in FY 2000, the Army expanded the ATAS program element to
   include two projects: the Tank and Medium Caliber Armament project and the
   Interim Armored Vehicle Family project. He stated that the report pertains to
   the Tank and Medium Caliber Armament project.

           Audit Response. Even though ATAS has had various names and the
   Army has funded ATAS using different program elements since program
   inception, ATAS has been an acquisition program in the program definition and
   risk reduction phase of the acquisition process since August 1989. Further, the
   report correctly stated that the funding for the ATAS was under the program
   element for the Tank and Medium Caliber Armament project.

           ATAS System Demonstrations. The Program Executive Officer stated
   that the Army uses ATAS to perform system demonstrations that allow the
   Army to assess the benefits, cost, and technical issues associated with system
   demonstrations. Further, he stated that, if a system demonstration achieves
   success and the Army approves it, the program progresses into the engineering
   and manufacturing development or the production phases of the acquisition
   process as part of other weapon-system-platform upgrades or modifications.

          Audit Response. We agree that the Army was using ATAS to conduct
   various technology demonstrations to support other weapon-system-platform
   programs. However, technology demonstrations should conform to
   requirements of the Army’s science and technology vision, strategy, principles,
   and priorities. Further, Army Pamphlet 70-3 requires the Army to fund



                                      24
technology demonstrations with applied research or advanced technology
development funds instead of acquisition-program type of research,
development, test and evaluation funds.

        Acquisition Guidance. The Program Executive Officer stated that the
Army managed ATAS in accordance with DoD Regulation 5000.2-R and that
the Program Manager’s Office briefed the Program Executive Office about
ATAS at quarterly review and analysis meetings. Further, the Program
Executive Officer stated that, DoD Regulation 5000.2-R states that, “The PM
shall streamline all acquisitions so that the acquisitions contain only those
requirements that are essential and cost-effective.” The Program Executive
Officer stated that ATAS does not require the same documentation as a major
Defense acquisition program because it is an Acquisition Category III program.
        Audit Response. If the Army managed ATAS in accordance with DoD
Regulation 5000.2-R, the Program Executive Officer would have ensured that
the Project Manager, Tank and Medium Caliber Armament Systems, developed
and documented an acquisition strategy for ATAS to guide the program from
program initiation through post-production support with the primary goal of
minimizing the time and cost of satisfying an identified, validated need
consistent with common sense and sound business practices. Instead, the
Program Executive Office allowed ATAS to be in the program definition and
risk reduction phase of the acquisition process for more than 11 years without a
specific program goal and full funding for the engineering and manufacturing
development and the production phases of the acquisition process.

Concerning the Program Executive Officer’s quote from DoD
Regulation 5000.2-R, he is taking the quote out of context. The paragraph
containing the quote discusses streamlining contract, management data, and
acquisition process requirements to meet the specific needs of individual
programs. Further, the paragraph preceding the quote states that, “The
acquisition strategy shall be developed in sufficient detail to establish the
managerial approach that shall be used to achieve program goals.” By not
ensuring that ATAS has a viable acquisition strategy, the Program Executive
Officer has allowed the Project Manager, Tank and Medium Caliber Armament
Systems, to proceed with a program that does not have a basis for formulating
functional plans and strategies for planning, directing, contracting for, and
managing ATAS to achieve program goals.

Concerning the Program Executive Officer’s comments about the ATAS not
being required to have the same documentation as a major Defense acquisition
program because it is an Acquisition Category III program, Army
Regulation 70-1 requires program managers to follow guidance and procedures
contained in DoD Regulation 5000.2-R for all Army acquisition programs and
to develop an acquisition strategy. Further, the Army Regulation requires the
milestone decision authority to review and approve the acquisition strategy at
milestone decision points.

       Types of Research, Development, Test, and Evaluation Funds. The
Program Executive Officer stated that the report incorrectly states that ATAS
performs technology demonstrations and should therefore be funded with
6.2 (applied research) or 6.3 (advanced technology development) funds instead

                                   25
of its current 6.4 (demonstration and validation) funds. He stated that ATAS
performed system demonstrations and integrations, which, according to the DoD
5000 model, must be funded with 6.4 funding.

       Audit Response. The Program Executive Officer did not correctly
paraphrase the report. The report states that:

              Because the Program Executive Office considers the ATAS
              to be technology demonstrations, the Army should be
              funding the ATAS with applied research or advanced
              technology development funds instead of 6.4 (demonstration
              and validation) type of research, development, test and
              evaluation funds.

The DoD Regulation 5000.2-R does not specify the type of funding for system
demonstrations; however, it does discuss demonstrations as part of the program
definition and risk reduction phase of the acquisition process, which is funded
with 6.4 funds. If the Program Executive Officer now considers ATAS to be an
acquisition program because it performs system demonstrations and integrations,
instead of being a program element for funding technology demonstrations, he
should require ATAS:

       •   to have a viable acquisition strategy to execute the program from
           program initiation through post-production support and

       •   to be fully funded for the engineering and manufacturing
           development and the production phases of the acquisition process.

        Program Funding. The Program Executive Officer stated that the
report incorrectly states that the Army obligated about $85.8 million in research,
development, test, and evaluation funds through FY 2000 for ATAS. Further,
the Program Executive Officer stated that, from FY 1995 through FY 2000, the
Army obligated $44.071 million in research, development, test, and evaluation
funds for ATAS, which were for system-level demonstrations that the Army
approved and funded.

      Audit Response. From August 1989, when ATAS began as the
Advanced Tank Cannon System, through FY 2000, the Army obligated about
$85.8 million in research, development, test, and evaluation funds for ATAS.




                                     26
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Commander, Army Materiel Command
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
  Deputy Assistant Secretary of the Army for Research and Technology
  Program Executive Officer, Ground Combat and Support Systems
      Program Manager, Tank and Medium Caliber Armament Systems
      Program Manager, Abrams Tank System
Assistant Secretary of the Army (Financial Management and Comptroller)
Deputy Chief of Staff for Operations and Plans
Auditor General, Department of the Army
Commander, Army Armor Center

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organization
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          27
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         28
Audit Team Members
   The Acquisition Management Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report. Personnel of the Office of the
   Inspector General, DoD, who contributed to the report are listed below.

     Thomas F. Gimble
     John E. Meling
     Jack D. Snider
     Neal J. Gause
     Frank Downey
     Jacqueline N. Pugh
     Krista S. Gordon
